GR-90-98-016
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF JUSTICE PROGRAMS, BUREAU OF JUSTICE ASSISTANCE
POLICE HIRING SUPPLEMENT GRANT TO THE CITY OF
WATSONVILLE POLICE DEPARTMENT
CALIFORNIA
GR-90-98-016
APRIL 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of
Justice Assistance, to the City of Watsonville Police Department (WPD), California. The
WPD received a grant of $180,969 to hire two additional police officers under the Police
Hiring Supplement (PHS) program. The purpose of the grant was to enhance community
policing efforts.
Generally, the WPD properly managed the PHS grant:


- Costs charged to the grants were in accordance with grant requirements. As of
    September 30, 1997, the WPD had requested reimbursement of about 50 percent of the
    allowable costs for the PHS grant.
- Budgeted funds for police services increased and the number of officers budgeted
    remained at the level of FY 1993, the year before the PHS grant. In addition, the WPD
    appeared to be making a good faith effort to fill officer vacancies timely. 
- Funds provided under the grant were used to enhance the WPD's community policing
    efforts. The number of officers performing community policing activities increased by the
    number of officers funded under the grant.


However, the WPD violated some grant conditions:


- The WPD did not submit one required Progress Report timely. 
- The WPD did not submit three of the 16 required quarterly Financial Status Reports
    timely. 


 
#####